APPENDIX

TABLE OF APPENDIX
Appendix A: Opinion of the U.S. Court of Appeals for the Eleventh Circuit (Apr. 1,
2021)……………………………………………………………………………………...……1a

APPENDIX A

United States v. Martinez, 851 Fed.Appx. 946 (2021)

pointed gun at him bore sufficient indicia of
reliability to provide reasonable suspicion to
conduct vehicle stop, even though officer's faceto-face interaction with motorist was brief,
and motorist never identified himself; motorist
personally witnessed reported incident that
had just happened and identified specific car
involved, officer observed that motorist appeared
“very nervous” and “super afraid,” and car in
question was reluctant to pass officer and unduly
delayed in stopping after officer activated his
blue lights. U.S. Const. Amend. 4.

851 Fed.Appx. 946
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Gabriel Samar MARTINEZ, Defendant-Appellant.
No. 19-14657
|
Non-Argument Calendar
|
(April 1, 2021)
Synopsis
Background: Following denial of his motion to suppress,
defendant pled guilty in the United States District Court for
the Southern District of Florida, No. 1:19-cr-20365-RNS-1,
Robert N. Scola, Jr., J., to possession of a firearm by a
convicted felon, and he appealed.

[2]

Searches and Seizures
reasonable cause

Probable or

Probable cause existed to justify warrantless
search of defendant's car, even though defendant
had already been removed from car; defendant
was pulled over based on another driver's
seemingly trustworthy report that defendant had
just pointed firearm at him in traffic, defendant
failed to stop immediately after police officer
signaled for him to pull over, and defendant made
“road rage” comment in response to officer's
question about whether he had gun. U.S. Const.
Amend. 4.

Holdings: The Court of Appeals held that:
[1] driver's statement to officer that defendant had just pointed
gun at him bore sufficient indicia of reliability to provide
reasonable suspicion to conduct vehicle stop, and
[2] probable cause existed to justify warrantless search of
defendant's car.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 1:19-cr-20365-RNS-1
Attorneys and Law Firms
Emily M. Smachetti, U.S. Attorney's Office, Miami, FL, U.S.
Attorney Service - Southern District of Florida, U.S. Attorney
Service - SFL, Miami, FL, for Plaintiff-Appellee
Katherine Anna Carmon, Michael Caruso, Federal Public
Defender, Federal Public Defender's Office, Miami, FL, for
Defendant-Appellant

West Headnotes (2)

Before NEWSOM, ANDERSON, and EDMONDSON,
Circuit Judges.

[1]

Opinion

Arrest

Particular cases

Motorist's statement to police officer that driver
of car driving directly behind his had just

PER CURIAM:

1a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

United States v. Martinez, 851 Fed.Appx. 946 (2021)

*947 Gabriel Martinez appeals his conviction after pleading
guilty to possession of a firearm by a convicted felon, in
18 U.S.C. § 922(g)(1). On appeal, Martinez
violation of
challenges the district court's denial of his motion to suppress
the gun that was seized during a warrantless search of his car
during a traffic stop. No reversible error has been shown; we
affirm.
I. Background
At about noon on 21 June 2018, Officer Vargas was driving
a marked police car southbound on the Florida Turnpike.
Officer Vargas saw a gray Kia sedan flashing its lights and
then pulling up alongside Officer Vargas's patrol car. The
Kia's driver was a man in his sixties, and he appeared to be
visibly frightened. Both the Kia driver and Officer Vargas
slowed “to a very slow speed” and rolled down their windows.
The Kia driver then told Officer Vargas that the driver of the
white car driving directly behind the Kia had just pointed a
gun at the Kia driver. Officer Vargas testified that the Kia
driver appeared “very nervous,” had “body tremors,” and
“was super afraid.” Based on the Kia driver's demeanor,
Officer Vargas believed “100 percent” the man's report about
a gun. The exchange between Officer Vargas and the Kia
driver lasted less than one minute.
Officer Vargas obtained no contact information or license
plate number for the informing Kia driver. Later attempts to
locate the Kia driver -- based on Officer Vargas's description
of the car and the driver -- were unsuccessful.
After receiving the tip, Officer Vargas located immediately
the white Nissan -- driven by Martinez -- that was pointed
out by the Kia driver. Officer Vargas slowed down so that
Martinez could pass him but “noticed the white Nissan didn't
want to pass [him], so [Officer Vargas] had to slow down more
and more.” When Martinez finally passed Officer Vargas,
Officer Vargas called for backup, activated his blue lights,
and blew his horn to get Martinez's attention. Nevertheless,
Martinez continued driving for two minutes before stopping,
driving past areas suitable for a driver to pull over.
After Martinez stopped and after the backup officers arrived,
Officer Vargas approached the car and asked whether
Martinez had a gun in the car. In response, Martinez
made a comment about “road rage.” After officers assisted
Martinez in getting out of the car, 1 officers searched the
car. Within thirty seconds, officers found a gun in a storage

area underneath the steering column. Officers then placed
Martinez under arrest.
Martinez later moved to suppress the gun found in his car. 2
Martinez argued that the anonymous tip from the Kia driver
lacked sufficient indicia of reliability that would give rise to
reasonable suspicion to justify a traffic stop. Martinez also
asserted that the warrantless search of his car was unlawful.
Following a suppression hearing, the magistrate judge
issued a report and recommendation (“R&R”) recommending
denying Martinez's motion. To be exact, the district court
overruled in part and sustained *948 in part Martinez's
objections to the R&R. But apart from two minor factual
corrections, the district court adopted entirely the R&R and
denied Martinez's motion to suppress.
Martinez entered a conditional guilty plea, reserving his
right to appeal the district court's denial of his motion to
suppress. The district court then sentenced Martinez to a
below-guidelines sentence of time served.
II. Discussion
We review the district court's denial of “a motion to suppress
evidence under a mixed standard, reviewing the court's
findings of fact for clear error and the application of law to
those facts de novo, construing the facts in the light most
United States
favorable to the prevailing party below.”
v. Pierre, 825 F.3d 1183, 1191 (11th Cir. 2016). We review
de novo a district court's determinations about reasonable
suspicion and probable cause. See
Ornelas v. United
States, 517 U.S. 690, 699, 116 S.Ct. 1657, 134 L.Ed.2d 911
(1996).
A. Traffic Stop
Consistent with the Fourth Amendment, a police officer may
conduct a brief investigative traffic stop when the officer
has “a particularized and objective basis for suspecting the
particular person stopped of criminal activity.”
Navarette
v. California, 572 U.S. 393, 396, 134 S.Ct. 1683, 188
L.Ed.2d 680 (2014). Reasonable suspicion is determined
based on the totality of the circumstances, including “both the
content of information possessed by police and its degree of
reliability.” Id. at 397, 134 S.Ct. 1683. In deciding whether
reasonable suspicion existed at the pertinent time, we consider
whether reasonable suspicion existed objectively under the

2a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

United States v. Martinez, 851 Fed.Appx. 946 (2021)

circumstances. See United States v. Nunez, 455 F.3d 1223,
1226 (11th Cir. 2006). An anonymous tip can give rise to
reasonable suspicion justifying an investigatory stop if the tip
contains “sufficient indicia of reliability.”
U.S. at 397, 134 S.Ct. 1683.

Navarette, 572

[1] The evidence in this case, viewed in the light most
favorable to the government, supports the district court's
determination that the Kia driver's tip bore sufficient indicia
of reliability. First, we have said that “[a] face-to-face
anonymous tip is presumed to be inherently more reliable than
an anonymous telephone tip because the officers receiving
the information have an opportunity to observe the demeanor
and perceived credibility of the informant.” See
United
States v. Heard, 367 F.3d 1275, 1279 (11th Cir. 2004).
Demeanor counts for a lot. Although Officer Vargas's face-toface interaction with the Kia driver was brief, Officer Vargas
observed immediately that the Kia driver appeared “very
nervous” and “super afraid.” Based on the driver's demeanor
and on Officer Vargas's experience, Officer Vargas believed
reasonably that the driver's testimony was credible.
Other pertinent circumstances that weigh in favor of the tip's
reliability are (1) that the Kia driver witnessed personally
the reported incident, (2) was reporting an incident that had
just happened, and (3) identified the specific car involved.
In
Navarette, the Supreme Court determined that an
anonymous 911 caller's report that a truck had just run her
off the road bore sufficient indicia of reliability to support a
traffic stop. See
572 U.S. at 404, 134 S.Ct. 1683. Among
other things, the Supreme Court found the tip reliable because
-- like the Kia driver in this case -- the 911 caller identified
a specific vehicle, “claimed eyewitness knowledge of the
alleged dangerous driving,” and made a contemporaneous
report of the incident “under the stress of excitement caused
by a startling event.” See

id. at 399-400, 134 S.Ct. 1683.

*949 Martinez's attempts to distinguish

Navarette are

unavailing. That the 911 caller in
Navarette could later
be identified and traced through the 911 system was not, by
itself, dispositive to the Supreme Court's decision; that fact
was, instead, “one of the relevant circumstances that, taken
together, justified the officer's reliance on the information
reported in the 911 call.” See

id. at 400-01, 134 S.Ct. 1683.

Anyway, more than one set of facts will satisfy the law in
these kinds of cases.
We also reject Martinez's assertion that this case is controlled
by the Supreme Court's decision in

Florida v. J.L., 529

U.S. 266, 120 S.Ct. 1375, 146 L.Ed.2d 254 (2000). In J.L.,
the Supreme Court concluded that an anonymous “bareboned” tip describing only the identity and location of a
man possessing a gun was insufficient to provide reasonable
529 U.S. at 270-71, 120 S.Ct. 1375. Unlike the
suspicion.
Kia driver's tip in his case, the anonymous tip at issue in
J.L. was made by an unknown caller (not face-to-face),
from an unknown location, and contained no information
about how the caller knew about the alleged gun. See
U.S. at 270-71, 120 S.Ct. 1375.

529

A finding of reasonable suspicion is further bolstered by
Martinez's reluctance to pass Officer Vargas after the Kia
driver's report -- a report that Martinez likely would have
witnessed happening directly in front of him in traffic - - and
by Martinez's undue delay in stopping. See
United States
v. Pruitt, 174 F.3d 1215, 1220 (11th Cir. 1999) (noting that a
driver's “reluctance to stop” is a factor that might “contribute
to the formation of an objectively reasonable suspicion of
illegal activity.”).
Given the totality of the circumstances presented in this case,
the Kia driver's tip was sufficiently reliable to give rise to
reasonable suspicion that Martinez had committed a crime:
aggravated assault with a firearm in violation of state law. The
district court committed no error in determining that the traffic
stop was lawful.
B. Vehicle Search
Under the “automobile exception” to the Fourth
Amendment's warrant requirement, police officers may
conduct a warrantless search of a vehicle if probable cause
exists to believe the vehicle contains contraband or evidence
of criminal activity.
California v. Acevedo, 500 U.S. 565,
580, 111 S.Ct. 1982, 114 L.Ed.2d 619 (1991). Probable cause
exists when “under the totality of the circumstances, there is a
fair probability that contraband or evidence of a crime will be
found in the vehicle.”
United States v. Lindsey, 482 F.3d
1285, 1293 (11th Cir. 2007).

3a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

United States v. Martinez, 851 Fed.Appx. 946 (2021)

[2] Considering the totality of the circumstances presented in
this case, the district court committed no error in determining
that probable cause existed to justify a search of Martinez's
car. Martinez was pulled over based on the Kia driver's
seemingly trustworthy report that Martinez had just pointed
a firearm at another motorist in traffic. The information in
that tip was then corroborated by Martinez's “road rage”
comment made in response to Officer Vargas's question about
whether Martinez had a gun: not a flat “no.” Given those
circumstances -- combined with Martinez's failure to stop
immediately after Officer Vargas signaled for Martinez to
pull over -- an objective officer could conclude reasonably
that a fair probability existed that evidence of a crime (the
gun Martinez purportedly brandished) would be found in
Martinez's car. See

Lindsey, 482 F.3d at 1293.

Even absent probable cause, the officers’ search of Martinez's
car constituted a permissible protective search for weapons
under

*950 Michigan v. Long, 463 U.S. 1032, 103

S.Ct. 3469, 77 L.Ed.2d 1201 (1983). Under
Long, police
officers may search “the passenger compartment of an
automobile, limited to those areas in which a weapon may be
placed or hidden” when officers can believe reasonably that
a suspect is dangerous and may gain immediate control of
weapons. 463 U.S. at 1049, 103 S.Ct. 3469. In determining
whether a protective search of an automobile is permissible,
we consider “whether a reasonably prudent man in the

circumstances would be warranted in the belief that his safety
or that of others was in danger.”
3469.

Id. at 1050, 103 S.Ct.

Given that Martinez had just been accused of brandishing a
firearm, that Martinez did not deny he had a gun, and that
Martinez's comment appeared to confirm that a “road rage”
incident had occurred, an objective officer could conclude
reasonably that Martinez was dangerous and had a weapon
accessible within the passenger compartment of his car. That
Martinez had already been removed from the car and, thus,
might not have been able to access immediately a weapon
when the car was searched does not change our conclusion.
See
Riley v. City of Montgomery, Ala., 104 F.3d 1247,
1253 (11th Cir. 1997) (noting that a suspect's removal from
the car is inconsequential to the lawfulness of a protective
search because, “[i]f the suspect is not placed under arrest, he
will be permitted to reenter his automobile, and he will then
have access to any weapons inside.”).
The district court committed no error in denying Martinez's
motion to suppress. We affirm Martinez's conviction.
AFFIRMED.
All Citations
851 Fed.Appx. 946

Footnotes
1
2

Martinez has a physical disability requiring crutches.
Martinez also moved unsuccessfully to suppress his “road rage” comment. Martinez, however, raises no
challenge to the district court's ruling on the comment.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

